No. 20-843
In the Supreme Court of the United
__________________

States

NEW YORK STATE RIFLE & PISTOL
ASSOCIATION, INC., ET AL.,
Petitioners,
v.
KEVIN P. BRUEN, IN HIS OFFICIAL CAPACITY AS
SUPERINTENDENT OF NEW YORK STATE POLICE, ET AL.,
Respondents.
__________________
On Writ of Certiorari to the United States
Court of Appeals for the Second Circuit
__________________
BRIEF OF AMICI CURIAE CENTER FOR DEFENSE
OF FREE ENTERPRISE, INDEPENDENT
FIREARMS OWNERS ASSOCIATION, UNITED
STATES CONCEALED CARRY ASSOCIATION,
PROTECT OUR GUN RIGHTS, AND
INTERNATIONAL ASSOCIATION FOR THE
PROTECTION OF CIVILIAN GUNS RIGHTS IN
SUPPORT OF PETITIONERS

__________________

JERAD WAYNE NAJVAR
Counsel of Record
AUSTIN M.B. WHATLEY
NAJVAR LAW FIRM, P.L.L.C.
2180 North Loop West, Ste. 255
Houston, TX 77018
(281) 404-4696
jerad@najvarlaw.com
Counsel for Amici Curiae
July 20, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Lower Courts Are Applying An Unduly
Permissive Review Of Government Restrictions
of Second Amendment Rights That This Court
Should Correct . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
A. Government interest . . . . . . . . . . . . . . . . . . . . 4
B. Tailoring to avoid unnecessary abridgment of
constitutional rights . . . . . . . . . . . . . . . . . . . . 6
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

ii
TABLE OF AUTHORITIES
CASES
American for Prosperity Found. v. Bonta,
141 S. Ct. 2373 (2021). . . . . . . . . . . . . . . . . . . . . . 6
Buckley v. Valeo,
424 U.S. 1 (1972). . . . . . . . . . . . . . . . . . . . . . . . . . 7
District of Columbia v. Heller,
554 U.S. 570 (2008). . . . . . . . . . . . . . . . . . . . . . 3, 8
Kachalsky v. County of Westchester,
701 F.3d 81 (2d Cir. 2012) . . . . . . . . . . . . . passim
McCullen v. Coakley,
573 U.S. 464 (2014). . . . . . . . . . . . . . . . . . . . . . . . 6
McCutcheon v. Fed. Election Com’n,
572 U.S. 185 (2014). . . . . . . . . . . . . . . . . . . . . . 7, 9
McDonald v. City of Chicago, Ill.,
561 U.S. 742 (2010). . . . . . . . . . . . . . . . . . . . . . . . 3
Turner Broadcasting System, Inc. v. F.C.C.,
520 U.S. 180 (1997). . . . . . . . . . . . . . . . . . . . . . 7, 8
United States v. O’Brien,
391 U.S. 367 (1968). . . . . . . . . . . . . . . . . . . . . . 4, 7
Ward v. Rock Against Racism,
491 U.S. 781 (1989). . . . . . . . . . . . . . . . . . . . . . . . 7
Woollard v. Gallagher,
712 F.3d 865 (4th Cir. 2013). . . . . . . . . . . . . 6, 8, 9

iii
CONSTITUTION
U.S. Const. amend. II. . . . . . . . . . . . . . . . . . . . passim
OTHER AUTHORITIES
Report of the N.Y. State Joint Legislative
Comm. On Firearms & Ammunition, Doc. No. 6
(1965). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

1
INTEREST OF THE AMICI CURIAE1
Center for the Defense of Free Enterprise is a
non-partisan education and research organization
dedicated to studies of free enterprise, public policy
research, book publishing, conferences, white papers,
and media outreach. The Center is a tax-exempt
educational organization under Section 501(c)(3) of the
United States Tax Code and has been incorporated
since 1976. The Center’s mission is to support the
property and human rights of individuals and
businesses against government intrusion. The Center
has presented testimony before congressional
committees on various public policy concerns.
Protect Our Gun Rights is a non-profit
organization incorporated in Washington State to focus
on Second Amendment rights and restrictions at the
state level.
International Association for the Protection of
Civilian Gun Rights is a non-profit coalition of
international groups from more than 21 countries. The
Association seeks to promote civilian arms rights,
including the natural right of defense of self and family
through the private ownership of firearms, by rebutting
common misinformation.
Independent Firearms Owners Association is
a limited liability company that represents over
250,000 supporters from all fifty states. The

1

All parties have consented to the filing of this brief. No counsel
for any party authored the brief in any part. Only amici funded its
preparation and submission.

2
Association seeks to change the tone and output of
criminal justice and cultural policy debates that need
a thoughtful re-examination in the light of changing
technology. Its core mission is to protect individuals’
Second Amendment rights from ever-encroaching
regulation and adverse business interests.
United States Concealed Carry Association is
a limited liability company founded in 2004 and
represents more than 500,000 members throughout the
United States. The Association’s mission is to advocate
for the rights of law-abiding citizens to carry firearms
for self-defense purposes and the implementation of
national concealed carry reciprocity.
SUMMARY OF ARGUMENT
Amici agree with Petitioners that the right to carry
outside the home is within the core of the right to “keep
and bear arms” protected by the Second Amendment.
As such, strict scrutiny should apply to New York’s
severe curtailment of that right. However, it is
unnecessary to announce a level of scrutiny because
New York’s law fails any faithful application of even
intermediate constitutional scrutiny. The law, as well
as other restrictions on Second Amendment rights,
have only been upheld by courts purporting to apply
“intermediate” scrutiny but whose analysis is not
nearly as rigorous as the intermediate scrutiny applied
in other contexts involving enumerated constitutional
rights. In this case, the Court should declare New
York’s law unconstitutional, and clearly illustrate that
the scrutiny to be applied when Second Amendment
rights are at stake is no less demanding than the
scrutiny applied to restrictions affecting other rights.

3
ARGUMENT
Lower Courts Are Applying An Unduly
Permissive Review Of Government
Restrictions of Second Amendment Rights
That This Court Should Correct.
Whether under strict or intermediate scrutiny, the
Court must analyze two fundamental questions. The
first question is whether the challenged restriction
furthers a legitimate governmental interest of
sufficient importance. Even if the law at issue does
further such an interest, the Court must analyze
whether it does so in a way that is appropriately
tailored—that is, whether it furthers the interest in a
manner that does not unduly restrict the rights at
issue. This Court has repeatedly emphasized that the
rights protected under the Second Amendment are not
to be treated as second-class rights. McDonald v. City
of Chicago, Ill., in particular, expressly rejected several
bases the government suggested warranted lesspreferential treatment for the Second Amendment. 561
U.S. 742, 782 (2010) (rejecting, e.g., arguments that
Second Amendment rights should be distinguished
from other enumerated rights because they may not be
recognized in all civilized societies, or because they
implicate public safety); see also District of Columbia v.
Heller, 554 U.S. 570, 634-35 (2008) (rejecting
dissenters’ suggestion to apply a distinct “interestbalancing-inquiry”). Despite such clear and repeated
admonitions from this Court in Heller and McDonald
that the Second Amendment shall not be disfavored,
lower courts have done just that.
Lower
courts—including the Second Circuit in Kachalsky v.

4
County of Westchester, 701 F.3d 81 (2d Cir.
2012)—have upheld gun restrictions applying a socalled “intermediate” scrutiny that looks more like
rational basis scrutiny and is far more deferential than
the intermediate scrutiny applied in other areas. This
unduly deferential analysis has been applied at both
steps of the inquiry, as illustrated below.
A. Government interest
To defend a law that infringes upon enumerated
rights, it is not sufficient for the government to assert
a legitimate interest in general.
Rather, the
government must demonstrate that the challenged law
furthers the proffered interest to some degree. See, e.g.,
United States v. O’Brien, 391 U.S. 367, 377 (1968)
(describing the inquiry—in the context of contentneutral speech restrictions—as whether the law
“furthers an important or substantial governmental
interest”). There is no question that states and local
governments have a legitimate interest in promoting
public safety. But it should not be sufficient for a
government defendant to advert to that general
interest in defense of any particular restriction of
firearms or Second Amendment rights; as in other
contexts, the government must always proffer a
rationale as to why and how the particular law at issue
actually furthers that interest, at least to some degree.
As relevant regarding laws like New York’s “proper
cause” requirement, the government must assert that
denying the right to carry to the vast majority of its
citizens—putting the burden on them to demonstrate
a special need—actually furthers the interest in public
safety. In fact, it is likely that the kind of person who

5
would decline to carry a firearm out of simple respect
for the law—the kind of person who, despite a strong
desire to carry, would carry only if authorized by the
government—is not the kind of person who presents a
threat to public safety at all. Therefore, it is not even
clear that a law like New York’s furthers its interest in
public safety in any way. Yet the Second Circuit
simply assumed that it does without inquiry. See 701
F.3d at 97. In fact, to the extent Kachalsky identified
an actual, articulated governmental interest in New
York’s broad ban on public carry, it relied upon a
tangential interest that should never be sufficient to
justify such severe curtailments of enumerated rights.
The Second Circuit placed much reliance on a portion
of the “legislative record”—which it block-quoted for
emphasis—asserting that
In the absence of adequate weapons legislation,
under the traditional law of criminal attempt,
lawful action by the police must await the last
act necessary to consummate the crime….
Adequate statutes governing firearms and
weapons would make lawful intervention by
police and prevention of these fatal consequences,
before any could occur.
701 F.3d at 98 (quoting Report of the N.Y. State Joint
Legislative Comm. On Firearms & Ammunition, Doc.
No. 6, at 12-13 (1965)) (emphasis supplied by court). In
other words, the Legislature adjudged criminalizing
the mere possession of handguns by “the people” at
large, notwithstanding the Second Amendment, would
save law enforcement the trouble of identifying and
intervening in actual crimes. This is not so much based

6
on public safety (as in any public safety threat posed by
otherwise law-abiding citizens possessing handguns in
public) as on administrative convenience.
Administrative convenience should not be sufficient.
The Court’s admonition that “the prime objective of the
First Amendment is not efficiency” applies equally with
respect to the Second Amendment. American for
Prosperity Found. v. Bonta, 141 S. Ct. 2373, 2387
(2021) (quoting McCullen v. Coakley, 573 U.S. 464, 495
(2014)). “Mere administrative convenience does not
remotely reflect the seriousness of the actual burden”
that New York’s “proper cause” requirement imposes
upon those wishing to exercise their Second
Amendment rights. See id. (internal quotations
omitted). The Fourth Circuit likewise placed undue
reliance on several merely administrative benefits that
Maryland argued would flow from that state’s similar
requirement. Woollard v. Gallagher, 712 F.3d 865,
879-80 (4th Cir. 2013) (reciting Maryland’s reasoning
that curtailing the presence of handguns in public
would “[r]educ[e] the number of ‘handgun sightings’
that must be investigated,” and “[f]acilitating the
identification of those persons carrying handguns who
pose a menace”). These types of administrative
benefits to the state are as deficient here as they are in
the First Amendment context.
B. Tailoring to avoid unnecessary abridgment
of constitutional rights
Kachalsky and other lower courts have also
unjustifiably truncated the tailoring prong of
intermediate scrutiny when Second Amendment rights
are in question.

7
Regardless of the context in which it is applied,
intermediate scrutiny has always required courts to
ask the question whether the challenged law is tailored
to avoid unnecessarily abridging constitutional rights.
This does not require that the least restrictive means
be employed, as under strict scrutiny, but still guards
against laws that are substantially broader than
necessary to further the governmental interest. Thus,
“time, place, or manner” regulations on protected
speech “need not be the least restrictive” means, “[s]o
long as the means chosen are not substantially broader
than necessary to achieve the government’s interest[.]”
Ward v. Rock Against Racism, 491 U.S. 781, 799-800
(1989) (emphasis added). Similarly, “[a] contentneutral [speech] regulation will be sustained under the
First Amendment if it advances important
governmental interests unrelated to the suppression of
free speech and does not burden substantially more
speech than necessary to further those interests.”
Turner Broadcasting System, Inc. v. F.C.C., 520 U.S.
180, 189 (1997) (citing O’Brien, 391 U.S. at 377); see
also McCutcheon v. Fed. Election Com’n, 572 U.S. 185,
199 (2014) (whether under strict or “closely drawn”
scrutiny, assessing the “fit between the stated
governmental objective and the means selected to
achieve that objective” requires analyzing whether the
law “‘avoid[s] unnecessary abridgment’ of First
Amendment rights”) (quoting Buckley v. Valeo, 424
U.S. 1, 25 (1972) (per curiam)). Kachalsky (and other
courts) purport to apply intermediate scrutiny but
wholly ignore this crucial component of the analysis.

8
In Kachalsky, the Second Circuit fills several pages
of the Federal Reporter explaining why New York’s
“proper cause” requirement is “substantially related” to
the state’s interest in public safety, but nowhere did
the court even attempt to address whether the severe
restriction was substantially broader than necessary.
701 F.3d at 97-100. In fact, the court expressly
eschewed any such analysis, apparently laboring under
the misimpression that any inquiry into tailoring would
mean a “review bordering on strict scrutiny” and
requiring the “least restrictive alternative.” Id. at 98.
Somehow—despite citing Turner for the relevant
standard, Kachalsky, 701 F.3d at 97—the Second
Circuit ignores the latter part of Turner’s formulation.
In the end, Kachalsky simply points to the fact that
Heller suggested “the state may ban firearm possession
in sensitive places,” and concludes that that supports
New York’s broad ban on handgun possession in
substantially all places, without any inquiry into
whether the state is justified in extrapolating from a
particularized ban into a general ban. 701 F.3d at 99100.
In Woollard v. Gallagher, 712 F.3d 865 (4th Cir.
2013), the Fourth Circuit upheld Maryland’s “good and
substantial reason” predicate to public carry with
similarly insufficient analysis. Just as in Kachalsky,
the Woollard court’s very statement of the “reasonable
fit” standard betrays a novel and unjustifiable
truncation of the tailoring inquiry. The Fourth Circuit
writes that the tailoring test “is satisfied if Maryland’s
interests are ‘substantially served by enforcement of
the’ good-and-substantial-reason requirement.” 712
F.3d at 878. Thus, the very statement of the standard

9
focused only on whether the challenged law furthered
the government interest without any consideration of
whether it was substantially broader than the state
could justify. And, in fact, not a word appears in
Woollard’s “reasonable fit” analysis addressing that
question. See 712 F.3d at 878-882. Instead, like
Kachalsky, the Fourth Circuit erroneously thought that
apparently any inquiry into whether a firearms
restriction sweeps substantially more broadly than
necessary was entirely inappropriate under
intermediate scrutiny. Indeed, the district court in
Woollard had subjected Maryland’s law to the
traditional intermediate scrutiny test, identifying
several alternative measures that would serve the
state’s interest without unnecessarily curtailing rights,
but the court of appeals discarded this analysis as
“more reminiscent of strict than intermediate scrutiny.”
712 F.3d at 882. In fact, the district court employed
the proper analysis. See, e.g., McCutcheon, 572 U.S. at
221 (“Importantly, there are multiple alternatives
available to Congress that would serve the
Government’s anticircumvention interest, while
avoiding unnecessary abridgment of First Amendment
rights.”)
The tailoring analysis employed in Kachalsky and
Woollard is not, and cannot be, a proper application of
the tailoring inquiry under intermediate scrutiny in
any context. It would presumably be easy for the
government to demonstrate that a total ban on
protected activity would further its interest in
addressing dangers from the activity—and thus
satisfying the truncated version of the test used by

10
these courts—but that does not mean that a total ban
is appropriately tailored.
CONCLUSION
Despite this Court’s clear teaching, in both Heller
and McDonald, that the Second Amendment cannot be
treated as a guarantee of second-class rights, the lower
courts have in fact done just that. In this case, the
Court should illustrate the proper—and properly
rigorous—form of scrutiny applicable to Second
Amendment rights. The judgment of the court of
appeals should be reversed.
Respectfully submitted,
JERAD WAYNE NAJVAR
Counsel of Record
AUSTIN M.B. WHATLEY
NAJVAR LAW FIRM, P.L.L.C.
2180 North Loop West, Ste. 255
Houston, TX 77018
(281) 404-4696
jerad@najvarlaw.com
Counsel for Amici Curiae

